No. 19-930

dn the
Supreme Court of the United States

 

 

CIC Services, LLC,
Petitioner,
Vv.

Internal Revenue Service,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIEF OF AMICUS CURIAE
PROFESSOR KRISTIN E. HICKMAN
IN SUPPORT OF PETITIONERS

AFFIDAVIT OF SERVICE

Stephen M. West, states that all parties required to be
served have been served and that three true and correct
copies of the Brief of Amicus Curiae Professor Kristin E.
Hickman in Support of Petitioners were served on the
persons listed below on the 24th day of February, 2020,
by depositing them with the United States Post Office,
with First Class Postage prepaid.
Patrick Strawbridge
CONSOVOY McCARTHY PLL
Ten Post Office Square

8th Floor South, PMB #706
Boston, MA 02109

Noel J. Francisco

Solicititor General

United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

eo

Stephen M. West

Subscribed and sworn to before me this 24th day of
February, 2020.

 
 
 
  
 
 

 
 

ane
KRISTI AUSTIN MOTCH
NOTARY PUBLIC - MINNESOTA

7 Wy Commisien Eres Jan 31,215 i

pezZzZZZZ aa

   
